No. _________

In the Supreme Court of the United States
GRETCHEN WHITMER, GOVERNOR OF MICHIGAN; JOCELYN BENSON, SECRETARY
OF STATE OF MICHIGAN; JONATHAN BRATER, DIRECTOR OF THE MICHIGAN BUREAU
OF ELECTIONS, IN THEIR OFFICIAL CAPACITIES, APPLICANTS
v.
SAWARIMEDIA L.L.C., ET AL.

APPENDIX A to Emergency Application to Stay the Preliminary Injunction Pending a Merits Decision by the Court of Appeals

Appendix A: The district court’s June 11, 2020 injunction order.

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.220

Page 1 of 37

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
SAWARIMEDIA LLC, et al.,
Plaintiffs,

Case No. 20-cv-11246
Hon. Matthew F. Leitman

v.
GRETCHEN WHITMER, et al.,
Defendants.
__________________________________________________________________/
OPINION AND ORDER GRANTING PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION (ECF No. 2)
Under Michigan law, citizens who sought to have an initiative proposal placed
on the 2020 general election ballot were required to collect more than 340,000
signatures by May 27, 2020. Likewise, Michigan law required certain candidates for
Congress who wished to appear on the 2020 primary ballot to obtain 1,000 signatures
by April 21, 2020. Against the backdrop of these ballot-access requirements, and in
order to combat the COVID-19 pandemic, on March 23, 2020, Defendant Governor
Gretchen Whitmer began issuing executive orders that required Michigan residents to
stay at home except in very limited circumstances. Those orders remained in effect for
more than two months. Notwithstanding the Governor’s orders, the State of Michigan
continued to strictly enforce its ballot-access signature requirements and filing
deadlines against candidates and citizens wishing to place initiatives on the ballot. As

1

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.221

Page 2 of 37

a result, some candidates and initiatives that likely would have qualified for the ballot
were excluded from the ballot.
A candidate for Congress recently filed suit alleging that the combination of
Governor Whitmer’s executive orders and the State’s strict enforcement of its ballotaccess requirements effectively precluded him from obtaining access to the ballot and
thereby imposed a severe and intolerable burden on his First Amendment rights. United
States District Judge Terrence Berg of this Court and the Sixth Circuit agreed and
enjoined the State from strictly enforcing its signature requirements and filing deadlines
against the candidate. See Esshaki v. Whitmer, --- F.Supp. 3d ---, 2020 WL 1910154
(E.D. Mich. Apr. 20, 2020) (Berg., J.), aff’d in part and rev’d in part, Esshaki v.
Whitmer, --- F. App’x ---, 2020 WL 2185553 (6th Cir. May 5, 2020).
In this action, Plaintiff SawariMedia LLC, a civil-rights organization that seeks
to place an initiative on Michigan’s 2020 general election ballot, brings a claim that
mirrors the one brought in Esshaki. SawariMedia alleges Governor Whitmer’s stay-athome orders, together with strict enforcement of Michigan’s signature requirement and
filing deadline, impose a severe and impermissible burden on its First Amendment
rights. For the same reasons that Judge Berg and the Sixth Circuit barred strict
enforcement of the ballot-access signature requirement and filing deadline against the
plaintiff in Esshaki, this Court will enjoin strict enforcement of them against
SawariMedia. Accordingly, SawariMedia’s motion for a preliminary injunction (see
Mot., ECF No. 2) is GRANTED on the terms set forth below.

2

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.222

Page 3 of 37

I
The Michigan Constitution “reserve[s]” to “the people” the “power to propose
laws and to enact and reject laws, called the initiative.” Mich. Const., 1963, art. 2, § 9.
In order to “invoke the initiative,” a citizen must submit “petitions signed by a number
of registered electors, not less than eight percent … of the total vote cast for all
candidates for governor at the last preceding general election at which a governor was
elected.” Id. A total of 4,250,585 votes were cast in Michigan’s last general election
for Governor.1 Thus, 340,047 signatures were required in order to secure a spot for an
initiative proposal on Michigan’s 2020 general election ballot. Under Michigan law,
the petitions containing those signatures had to be filed with the Michigan Secretary of
State by not later than May 27, 2020. See Mich. Comp. Laws § 168.471 (requiring the
filing of initiative petitions with the Secretary of State “at least 160 days before the
election at which the proposed law would appear on the ballot”).
Once signed petitions are filed with the Secretary of State, the Board of State
Canvassers “shall canvass the petitions to ascertain if the petitions have been signed by
the requisite number of qualified and registered [voters].” Mich. Comp. Laws
§ 168.476. During this canvassing process, the Board of State Canvassers, among other
things, reviews a “random sampl[e]” of signatures to determine if the signatures are
valid. (Decl. of Defendant Jonathan Brater, Michigan Director of Elections, at ¶7, ECF

1

See https://mielections.us/election/results/2018GEN_CENR.html.
3

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.223

Page 4 of 37

No. 7-2, PageID.149-151.) “Every petition within the random sample is reviewed for
facial validity,” and valid signatures are then “checked against the Qualified Voter File
[] to verify the signer’s registration status.” (Id., PageID.150.) The canvassing process
also allows interested parties to challenge a determination made about a signature’s
validity. (See id.) “It takes approximately 60 days to complete the random sampling
and challenge process.” (Id., PageID. 151.) The Board of State Canvassers must
complete their canvass and “shall make an official declaration of the sufficiency or
insufficiency of an initiative petition no later than 100 days before the election at which
the proposal is to be submitted.” Mich. Comp. Laws § 168.477(1).
If the Board of State Canvassers declares that an initiative petition has sufficient
signatures, the Michigan Legislature then has “40 session days” to either “enact[]” the
proposal “without change or amendment” or reject the proposal. Mich. Const., 1963,
art. 2, § 9. “If the Legislature does not enact the proposal within 40 session days, the
Board of State Canvassers must prepare the proposal for the ballot by assigning a
numerical ballot designation and approving ballot wording by no later than the 60th day
prior to the election.” (Brater Decl. at ¶11, ECF No. 7-2, PageID.151-152, citing Mich.
Comp. Laws §§ 168.474a, 168.480.) Ballots are then prepared, printed, and mailed to
military and overseas voters. See Mich. Comp. Laws §§ 168.759a, 168.714.
For the 2020 general election, the relevant dates are as follows:

4

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.224

Page 5 of 37

DATE

ACTION

May 27, 2020

Petitions for initiatives that include at
least 340,047 valid signatures must be
filed with the Michigan Secretary of
State
Board of State Canvassers canvass
petitions
Board of State Canvassers declares
whether an initiative petition is sufficient
or insufficient
Board of State Canvassers must assign
numerical designation and approve
ballot wording for all statewide
proposals
Printed ballots must be made available
for delivery to overseas and military
voters
General election

May 27, 2020 – July 23, 2020
July 24, 2020
September 4, 2020

September 21, 2020
November 3, 2020
II
A

SawariMedia “is a coalition of like-minded individuals who work together to
educate and promote their political views in the public arena.” (Decl. of Amani Sawari,
owner and manager of SawariMedia, at ¶2, ECF No. 2, PageID.66.) In the “summer of
2019,” SawariMedia media began planning to place an initiative on Michigan’s 2020
general election ballot pursuant to the process described above. (Id. at ¶4, PageID.66.)
That initiative seeks “to allow all [Michigan] prisoners regardless of the date on which
they were sentenced, the right to earn time off their sentences by incentivizing good
behavior, academic and professional achievement.” See http://mprca.info/petition.

5

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.225

Page 6 of 37

SawariMedia has “hired campaign staff” and has been “diligently campaigning”
in support of the initiative for nearly a year. (Sawari Decl. at ¶4, ECF No. 2,
PageID.66.2) It has, among other things, “purchased a website devoted to the initiative,
hosted several town-hall meetings [related to] the initiative, conducted multiple training
sessions across the state for canvassers of the [initiative], and purchased more than
thirty-four thousand (34,000) copies of the [initiative’s ballot] petition.” (Id.) It has
also “implemented a plan to collect the [required] number of signatures” so that the
initiative qualifies to be placed on the November 2020 general election ballot. (Id. at
¶6, PageID.67.) SawariMedia formally filed its ballot initiative petition with Defendant
Michigan Secretary of State on January 16, 2020, and it began collecting signatures as
of that date.

B
By early March, SawariMedia appeared to be well on its way to collecting a
sufficient number of signatures to place its initiative on the November 2020 general
election ballot. At that time, it had “collected approximately two-hundred fifteen
thousand (215,000) valid signatures” in support of the initiative – an average of over

2

Ms. Sawari’s declaration in the record is unsigned. During the June 5, 2020,
hearing on Plaintiffs’ motion, Ms. Sawari affirmed under oath that the statements in
her declaration are true and accurate.
6

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.226

Page 7 of 37

22,000 per week. (Id. at ¶¶ 3, 7, PageID.66-67.) And it had nearly two and a half months
to collect the remaining 125,000 signatures that it needed under Michigan law. But
then, the world changed.
On March 10, 2020, the Michigan Department of Health and Human Services
identified the first two presumptive-positive cases of the COVID-19 coronavirus in
Michigan.3 Governor Whitmer declared a “State of Emergency” that same day. The
State of Emergency executive order recognized that COVID-19 “can easily spread from
person to person” and could “result in serious illness or death.”4 As the virus began to
spread rapidly across the State (and country), this Court closed to the public. Sports
leagues stopped holding games. Churches, synagogues, and mosques stopped holding
in-person services. And the federal government issued a series of recommended
guidelines to “slow the spread” of the virus. Large gatherings of people stopped taking
place, and citizens were urged not to leave their homes and not to allow others (even
family) to visit their homes.
At this same time, Governor Whitmer began issuing a series of executive orders
to require “social distancing” and mitigate the spread of the virus in Michigan. These
executive orders included:

3

See Gov. Whitmer Executive Order 2020-04, Declaration of State of Emergency,
https://www.michigan.gov/whitmer/0,9309,7-387-90499_90705-521576--,00.html.
4

Id.
7

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.227

Page 8 of 37

 A March 13, 2020, executive order that prohibited the assembly of more than
250 people in a shared space and closed all K-12 school buildings in the state.5
This order provided that it did not “abridge protections guaranteed by the state
or

federal

constitution

under

these

emergency

circumstances”

(the

“Constitutional Exemption Language”).
 A March 16, 2020, executive order that closed various places of public
accommodation, such as restaurants, bars, and gyms.6 This order did not include
the Constitutional Exemption Language.
 A March 19, 2020, executive order that prohibited the assembly of more than 50
people in a shared space.7 This order did include the Constitutional Exemption
Language.
On March 23, 2020, Governor Whitmer issued what has become known as the
“Stay-at-Home Order.”8 The Stay-at-Home Order, subject to very limited exceptions,
required “all individuals currently living within the State of Michigan … to stay at home
or at their place of residence. Subject to the same exceptions, all public and private

5

See Gov. Whitmer Executive Order 2020-5, Temporary Prohibition on Large
Assemblages and Events, Temporary School Closures, https://www.michigan.gov/
whitmer/0,9309,7-387-90499_90705-521595--,00.html.
6

See Gov. Whitmer Executive Order 2020-9, Temporary Restrictions on the Use of
Places of Public Accommodation, https://www.michigan.gov/whitmer/0,9309,7A387-90499_90705-521789--,00.html.

7

See Gov. Whitmer Executive Order 2020-11, Temporary Prohibition on Large
Assemblages and Events, Temporary School Closures, https://www.michigan.gov/
whitmer/0,9309,7-387-90499_90705-521890--,00.html.
8
See Gov. Whitmer Executive Order 2020-21, Temporary Requirement to Suspend
Activities That Are Not Necessary to Sustain or Protect Life,
https://www.michigan.gov/whitmer/0,9309,7-387-90499_90705-522626--,00.html.
8

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.228

Page 9 of 37

gatherings of any number of people occurring among persons not part of a single
household [were also] prohibited.”9 The Stay-at-Home Order further prohibited all
persons and entities from “operat[ing] a business or conduct[ing] operations that require
workers to leave their homes or places of residence except to the extent that those
workers are necessary to sustain or protect life or to conduct minimum basic
operations.”10 It also required all persons to remain at least six feet apart. Importantly,
and unlike the executive orders issued on March 13 and March 19, the Stay-at-Home
Order did not include the Constitutional Exemption Language.

On April 9, April

24, and May 1, 2020, Governor Whitmer issued additional executive orders extending
the requirement that Michigan residents stay in their homes.11 None of those extensions
included the Constitutional Exemption Language.
On May 7, May 18, and May 21, Governor Whitmer again issued executive
orders extending the stay-at-home provisions.12 While these orders still required
Michiganders to remain at home, each of the extensions did include the Constitutional
Exemption Language.13 The May 21 extension of the Stay-at-Home Order kept in place

9

Id.

10

Id.

11

See Gov. Whitmer Executive Orders 2020-42, 2020-59, and 2020-70.
See Gov. Whitmer Executive Orders 2020-77, 2020-92, and 2020-96.

12
13

The April 9, April 24, May 1, May 7, May 18, and May 21 executive orders
extending the stay-at-home requirement each contained some limited modifications
to the initial Stay-at-Home Order. Aside from the inclusion of the Constitutional
9

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.229

Page 10 of 37

the requirement that Michigan residents stay at home through and beyond May 27, 2020
– the filing deadline for initiative petitions.
Each of Governor Whitmer’s executive orders provided that “[c]onsistent with
[Mich. Comp. Laws §] 10.33 and [Mich. Comp. Laws §] 30.405(3), a willful violation
of this order is a misdemeanor.”14
C
Beginning in early-to-mid March, in order to comply with Governor Whitmer’s
executive orders, SawariMedia “postponed many of [its] efforts to collect signatures”
in support of its ballot initiative. (Sawari Decl. at ¶10, ECF No. 2, PageID.67.) Unable
to collect signatures in person, SawariMedia attempted to collect signatures by mailing
petitions to potentially interested signers. But that effort cost “a substantial amount of
money” and was hampered by lengthy delays in the processing of mail in Michigan.
(Id. at ¶23, PageID.69.) SawariMedia insists that Governor Whitmer’s executive
orders, and the enforcement of those orders, “made it impossible” to collect the required
number of signatures by the May 27, 2020, filing deadline. (Id. at ¶20, PageID.69.)
III
This action is brought by SawariMedia and Co-Plaintiffs Deborah Parker, Judy
Kellogg, and Paul Ely against Governor Whitmer, Michigan Secretary of State Jocelyn

Exemption Language in the May 7, May 18, and May 21 executive orders, none of
the other modifications are relevant to the Court’s analysis.
14

See, e.g., Gov. Whitmer Executive Orders 2020-21, 2020-77, 2020-96.
10

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.230

Page 11 of 37

Benson, and Michigan’s Director of Elections Jonathan Brater. Parker, Kellogg, and
Ely are each Michigan citizens who say that they would have signed SawariMedia’s
ballot initiative petition but for Governor Whitmer’s executive orders. (See
Declarations, ECF No. 2, PageID.71-76.) In addition, Parker says that she “requested
that a copy of the petition be mailed to [her]” so that she could sign the petition and
return it to SawariMedia, but she has “yet to receive it in the mail.” (Parker Decl. at ¶8,
ECF No. 2, PageID.72.)
Plaintiffs’ Complaint contains three counts. In Counts I and II, Plaintiffs allege
that Defendants’ strict enforcement of the May 27, 2020, filing deadline and the
requirement that SawariMedia collect 340,047 signatures under the present
circumstances violates their First and Fourteenth Amendment rights. (See Compl. at ¶¶
49-60, ECF No. 1, PageID.10-11.) In Count III, Plaintiffs claim that Defendants have
violated Plaintiffs’ Fourteenth Amendment rights by “refus[ing] to apply this Court’s
previous Order in Esshaki v. Whitmer, et al.” to SawariMedia’s ballot initiative. (Id. at
¶¶ 61-65, PageID.12.)
Plaintiffs have also filed a motion for a temporary restraining order and/or a
preliminary injunction. (See Mot., ECF No. 2.) In the motion, Plaintiffs ask the Court
to enter an order prohibiting Defendants from enforcing the signature requirement and
filing deadline for ballot initiative petitions. (See id.)
Plaintiffs mailed copies of their Complaint and motion to the Court on May 4,
2020. However, due to a delay in docketing pro se filings in this Court due to reduced

11

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.231

Page 12 of 37

in-person staffing during the COVID-19 pandemic, neither document was processed or
posted to the Court’s docket until May 20, 2020. (See Docket). Once the Court became
aware of this action and the emergency nature of Plaintiffs’ motion, it immediately
scheduled and held an on-the-record telephonic status conference with Plaintiffs and
counsel for the Defendants, and it set an expedited briefing schedule on Plaintiffs’
motion. Defendants filed their response to the motion on May 27, 2020, Plaintiffs filed
their reply on June 1, 2020, and Defendants filed a sur-reply. (See Def.s’ Resp. Br., ECF
No. 7; Pl.s’ Reply Br., ECF No. 12; Def.s’ Sur-reply, ECF No. 16.) The Court held a
hearing on the motion on June 5, 2020.
IV
A preliminary injunction “is an extraordinary and drastic remedy.” S. Glazer’s
Distribs. of Ohio v. Great Lakes Brewing Co., 860 F.3d 844, 849 (6th Cir. 2017)
(quoting Munaf v. Geren, 553 U.S. 674, 689–90 (2008)). Although the movant “is not
required to prove his case in full at a preliminary injunction hearing,” Certified
Restoration Dry Cleaning Network, L.L.C. v. Tenke Corp., 511 F.3d 535, 542 (6th Cir.
2007), a preliminary injunction should not “be granted lightly.” S. Glazer’s, 860 F.3d
at 849.
A district court balances four factors when considering a motion for a
preliminary injunction or a temporary restraining order: “(1) whether the movant has a
strong likelihood of success on the merits; (2) whether the movant would suffer
irreparable injury absent the injunction; (3) whether the injunction would cause

12

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.232

Page 13 of 37

substantial harm to others; and (4) whether the public interest would be served by the
issuance of an injunction.” Id. (quotations omitted). The last two factors “merge when
the Government is the opposing party.’” Nken v. Holder, 556 U.S. 418, 435 (2009).
“[T]hese are factors to be balanced, not prerequisites to be met.” Id. “[N]o one
factor is controlling.” Gonzales v. Nat’l Bd. of Med. Exam’rs, 225 F.3d 620, 625 (6th
Cir. 2000). “When evaluating these factors for an alleged constitutional violation, the
likelihood of success on the merits often will be the determinative factor.” Thompson
v. DeWine, --- F.3d ---, 2020 WL 2702483, at *2 (6th Cir. May 26, 2020) (internal
quotation marks omitted). See also Bays v. City of Fairborn, 668 F.3d 814, 819 (6th
Cir. 2012) (recognizing that in First Amendment cases, “the crucial inquiry is usually
whether the plaintiff has demonstrated a likelihood of succeed on the merits”).
V
The Court begins with the first factor of the preliminary injunction analysis:
whether Plaintiffs have shown a substantial likelihood of success on the merits of their
claims. The Court concludes that they have.
A
“[A]lthough the Constitution does not require a state to create an initiative
procedure, if it creates such a procedure, the state cannot place restrictions on its use
that violate the federal Constitution[.]” Thompson, 2020 WL 2702483, at *2. Sixth
Circuit precedent “dictates” that this Court review Plaintiffs’ First Amendment
challenges to Michigan’s signature requirement and filing deadline for ballot initiatives

13

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.233

Page 14 of 37

“under the Anderson-Burdick framework.”15 Id. Analysis under that framework
involves several steps:
First, we determine the burden the State’s regulation
imposes on the plaintiffs’ First Amendment rights. When
States impose “reasonable nondiscriminatory restrictions[,]”
courts apply rational basis review and “‘the State’s important
regulatory interests are generally sufficient to justify’ the
restrictions.” Burdick v. Takushi, 504 U.S. 428, 434, 112
S.Ct. 2059, 119 L.Ed.2d 245 (1992) (quoting Anderson v.
Celebrezze, 460 U.S. 780, 788, 103 S.Ct. 1564, 75 L.Ed.2d
547, (1983)). But when States impose severe restrictions,
such as exclusion or virtual exclusion from the ballot, strict
scrutiny applies. Id. at 434, 112 S.Ct. 2059; Schmitt [v.
LaRose], 933 F.3d [628,] 639 [6th Cir. 2019] (“The hallmark
of a severe burden is exclusion or virtual exclusion from the
ballot.”). For cases between these extremes, we weigh the
burden imposed by the State’s regulation against “ ‘the
precise interests put forward by the State as justifications for
the burden imposed by its rule,’ taking into consideration
‘the extent to which those interests make it necessary to
burden the plaintiff’s rights.’ ” Burdick, 504 U.S. at 434, 112
S.Ct. 2059 (quoting Anderson, 460 U.S. at 789, 103 S.Ct.
1564).
Id. at ** 2-3 (emphasis added). See also Esshaki, 2020 WL 1910154, at *4 (describing
the applicable Anderson-Burdick framework).
B
1
The Court begins its analysis under Anderson-Burdick by determining the
severity of the burden that Defendants have placed upon Plaintiffs’ First Amendment

15

See Anderson v. Celebrezze, 460 U.S. 780 (1983); Burdick v. Takushi, 504 U.S.
428 (1992).
14

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.234

Page 15 of 37

rights. In two very recent cases, another Judge on this Court (Judge Berg) and the Sixth
Circuit evaluated the First Amendment burdens imposed by the combination of a state’s
enforcement of ballot-access provisions and a Governor’s stay-at-home orders issued
during the COVID-19 pandemic.
The first of those cases is Esshaki, supra. The plaintiff in that case, Eric Esshaki,
was a candidate for the United States Congress in Michigan’s Eleventh Congressional
District. See Esshaki, 2020 WL 1910154, at *2. Under Michigan law, Esshaki needed
to collect 1,000 valid signatures by April 21, 2020, in order to qualify for the August 4,
2020, primary ballot. See id. At the time Governor Whitmer issued the Stay-at-Home
order on March 23, 2020, Esshaki had collected approximately 700 signatures.
According to Esshaki, Governor Whitmer’s Stay-at-Home Order “for all practical
purposes denied [him] the opportunity to collect the [remaining] signatures that [he]
needed during the timeframe between March 23 and April 21.” Id. Esshaki then filed
suit against Governor Whitmer, Director Brater, and Secretary Benson. He claimed
that enforcement of the signature requirement and filing deadline “under the present
circumstances” and “without exception for consideration or consideration of the
COVID-19 pandemic or [Governor Whitmer’s] Stay-at-Home Orders” violated his
First Amendment rights. Esshaki, 2020 WL 2185553, at *1.
Judge Berg analyzed Esshaki’s claim under the Anderson-Burdick framework
and determined that the combination of the State’s ballot access laws and the Stay-atHome Order placed a severe burden on Esshaki’s constitutional rights. Judge Berg

15

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.235

Page 16 of 37

explained that the State “pulled the rug out from under” Esshaki and other candidates
who needed to circulate petitions while the Stay-at-Home order was in place:
The reality on the ground for Plaintiff and other candidates
is that state action has pulled the rug out from under their
ability to collect signatures. Since March 23, 2020,
traditional door-to-door signature collecting has become a
misdemeanor offense; malls, churches and schools and other
public venues where signatures might be gathered have been
shuttered, and even the ability to rely on the mail to gather
signatures is uncertain—if not prohibitively expensive.
Absent relief, Plaintiff’s lack of a viable, alternative means
to procure the signatures he needs means that he faces virtual
exclusion from the ballot. After considering Defendants’
arguments, this Court has little trouble concluding that the
unprecedented—though
understandably
necessary—
restrictions imposed on daily life by the Stay-at-Home
Order, when combined with the ballot access requirements
of Sections 168.133 and 168.544f, have created a severe
burden on Plaintiff’s exercise of his free speech and free
association rights under the First Amendment, as well as his
due process and equal protection rights under the Fourteenth
Amendment—as expressed in his effort to place his name on
the ballot for elective office. See Libertarian Party of Ky. [v.
Grimes], 835 F.3d [570, 574 (6th Cir. 2016)] (“The hallmark
of a severe burden is exclusion or virtual exclusion from the
ballot.”). Accordingly, a strict scrutiny analysis is
appropriate here. See, e.g., Faulkner v. Va. Dep’t. of
Elections, CL 20-1456 (Va. Cir. Ct. Mar. 25, 2020)
(applying strict scrutiny to candidate’s ballot access claim in
light of state’s COVID-19 restrictions).
Esshaki, 2020 WL 1910154, at *6.
On appeal, the Sixth Circuit held that Judge Berg had “properly applied the
Anderson-Burdick test” and had “correctly determined that the combination of the
State’s strict enforcement of the ballot-initiative provisions and the Stay-at-Home

16

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.236

Page 17 of 37

Orders imposed a severe burden on the plaintiff’s ballot access, so strict scrutiny
applied.” Esshaki, 2020 WL 2185553, at *1.
The second case is Thompson, supra. In Thompson, “three individuals and two
organizations” were “obtaining signatures in support of initiatives to amend the Ohio
Constitution.” Thompson, 2020 WL 2702483, at *1. “While Plaintiffs were advancing
their petitions for the November 3, 2020 general election, the world was stunned by the
advent of [the COVID-19 pandemic].” Thompson, 2020 WL 2557064, at *1 (S.D. Ohio
May 19, 2020). “In an effort to respond rapidly to this threat, Ohio Governor Mike
DeWine, in Executive Order 2020-01D, authorized Ohio Department of Health Director
Amy Acton, M.D., to formulate general treatment guidelines to curtail the spread of
COVID-19 in Ohio. In accordance with Governor DeWine’s Executive Order, Dr.
Acton issued several Director’s Orders, one of which required all individuals living in
Ohio to stay home beginning March 22, 2020 subject to certain exceptions.” Id.
The plaintiffs in Thompson then filed suit against Governor DeWine and others.
The plaintiffs claimed that “Ohio’s strict enforcement of its requirements for placing
local initiatives and constitutional amendments on the ballot unconstitutionally
burden[ed their] First Amendment rights in light of the ongoing pandemic and Ohio’s
emergency orders.” Id. at *2. The district court reviewed the plaintiffs’ claims under
the Anderson-Burdick framework and, for the same reasons as in Esshaki, it found that
the combination of Ohio’s strict application of its ballot-access requirements and Ohio’s

17

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.237

Page 18 of 37

stay-at-home orders imposed a severe burden on the plaintiffs’ constitutional rights. See
id. at ** 12-14.
The Sixth Circuit reversed. It held that the burden on the plaintiffs was not severe
for two primary reasons. First, the Sixth Circuit found it “vitally important” that Ohio’s
stay-at-home orders included significant “express exemption[s]” for First Amendment
activity. Thompson, 2020 WL 2702483, at *3. More specifically, “[f]rom the first
Department of Health Order issued on March 12, Ohio made clear that its stay-at-home
order did not apply to ‘gatherings for the purpose of the expression of First Amendment
protected speech.’ And in its April 30 order, [Ohio] declared that its stay-at-home
restrictions did not apply to ‘petition or referendum circulators.’” Id. (internal citation
omitted). Second, “Ohio [began] to lift their stay-at home restrictions” prior to the
relevant filing deadline. Id. at *4. The plaintiffs in Thompson had a “five-week period
from Ohio’s rescinding of its [stay-at-home] order until the deadline to submit an
initiative petition.” Id. Based largely on these factors, the Sixth Circuit held in
Thompson that the burden on plaintiffs was only “intermediate” and was not “severe.”
Id. at ** 4-5.
2
In assessing the impact of the burden on Plaintiffs’ First Amendment rights, the
question that the Court must now resolve is: is the burden more like the burden in
Esshaki (severe) or more like Thompson (intermediate)? The burden is more like
Esshaki and is therefore severe.

18

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.238

Page 19 of 37

Like the plaintiff in Esshaki, the Plaintiffs here faced a daunting signature
requirement with a firm deadline in the midst of the COVID-19 pandemic. And from
March 23, 2020, through May 7, 2020, the Plaintiffs in this action were subject to the
exact same Stay-at-Home Order (and the extensions of that order) as the plaintiff in
Esshaki – an order that prohibited Michiganders from leaving their homes except in
very limited circumstances. Then, from May 7 through May 27, 2020 (the petition
submission deadline), the Plaintiffs here were subject to three additional executive
orders that continued to require Michigan residents to stay in their homes and avoid all
public and private gatherings except as expressly authorized. Just as in Esshaki, the
State “pulled the rug out from under the ability [of Plaintiffs] to collect signatures” and
“[a]bsent relief, [Plaintiffs’] lack of a viable, alternative means to procure the signatures
[they] need[] means that [they] face virtual exclusion from the ballot.” Esshaki, 2020
WL 1910154, at *6. Thus, as in Esshaki, this burden on Plaintiffs’ First Amendment
rights is severe.
The burden is unlike Thompson for two primary reasons. First, and most
importantly, in Thompson, “none of Ohio’s pandemic response regulations changed the
status quo on the activities Plaintiffs could engage in to procure signatures for their
petition.” Thompson, 2020 WL 2702483, at *3 (emphasis added). As the Sixth Circuit
emphasized, and as described above, Ohio’s stay-at-home orders included two
provisions that clearly allowed the plaintiffs to circulate their petitions. The first
provision “made clear that its stay-at-home order did not apply to ‘gatherings for the

19

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.239

Page 20 of 37

purpose of the expression of First Amendment protected speech.’” Thompson, 2020 WL
2702483, at *3. The second exemption “declared that its stay-at-home restrictions did
not apply to ‘petition or referendum circulators.’” Id. These “express exemptions” were
“vitally important” to the Sixth Circuit’s determination that Ohio’s stay-at-home orders
did not impose a severe burden on the plaintiffs’ First Amendment rights. Id.
In sharp contrast here, Governor Whitmer’s initial Stay-at-Home Order and the
April 9, April 24, and May 1, 2020, extensions of that order – which covered the sixweek period from March 23, 2020, through May 7, 2020 – did not include any language
exempting any constitutionally protected activity, much less language specifically
exempting petition circulating.16 And while the May 7, May 18, and May 21 executive
16

Defendants stress that even though the Stay-at-Home Order, and the April 9, April
24, and May 1 extensions of that order, did not expressly exempt constitutionally
protected activities, the orders were “interpreted” to allow for those activities.
(Def.s’ Resp., ECF No. 7, PageID.114-115.) This “interpretation” was found on the
State of Michigan’s website in a “frequently asked questions” document. (See id.)
But as the Sixth Circuit highlighted in Thompson, while “executive officials in
Michigan informally indicated [in the FAQ’s] that they would not enforce [the Stayat-Home Order and the extensions of that order] against those engaged in protected
activity …. that promise is not the same thing as putting the restriction in the order
itself.” Thompson, 2020 WL 2702483, at *3 (emphasis added) (distinguishing the
Ohio stay-at-home orders at issue in Thompson from the Michigan stay-at-home
orders at issue in Esshaki). See also Fair and Equal Michigan, Mich. Ct. Claims
Case No. 20-000095, at 10-11 (June 6, 2020) (noting that the State’s frequentlyasked-questions document “did not have the force of law” and, notwithstanding that
document, individuals who gathered for the purpose of expressing their political
views during the pendency of the Stay-at-Home Order were “in jeopardy of arrest”).
Moreover, two of Governor Whitmer’s previous orders – i.e., the executive orders
issued on March 13, 2020, and March 19, 2020 (described above) – did include
language purporting to exempt constitutionally protected activity, but that language
was omitted from the Stay-at-Home Order and the April 9, April 24, and May 1
20

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.240

Page 21 of 37

orders extending the Stay-at-Home Order did include the Constitutional Exemption
Language, it is far from clear that that language permitted citizens to gather petition
signatures. The Constitutional Exemption Language provided that the restrictions
imposed by the Governor did not “abridge protections guaranteed by the state or federal
constitution under these emergency circumstances.”17 But that begs the difficult
question: how do “these emergency circumstances” impact constitutional protections?
Do citizens have a First Amendment right to gather signatures in public at the height of
a raging COVID-19 pandemic that threatens the health and, indeed, the lives of millions
of Americans?18 Notably, the exemptions from the stay-at-home order in Thompson
raised no such questions. On the contrary, the Sixth Circuit found them to be “clear.”
Thompson, 2020 WL 2702483, at *3. For these reasons, the Constitutional Exemption
Language – which was present only in the orders covering the last twenty days of the
signature-collection period – did not meaningfully lessen the burden on Plaintiffs’ First

extensions of that order. Under these circumstances, it would be unreasonable to
interpret the Stay-at-Home Order, and the April 9, April 24, and May 1 extensions
of that order, as purporting to exempt constitutionally protected activity.
17

See, e.g., Gov. Whitmer Executive Order 2020-77, supra (emphasis added).
There are no obvious answers to the questions posed above. But there is at least
some authority for the proposition that liberties that citizens enjoy under the
Constitution may be subject to at least some otherwise impermissible restraints
during a public health crisis. See, e.g., Jacobson v. Massachusetts, 197 US 11 (1905);
Adams & Boyle, P.C. v. Slatery, 956 F.3d 913, 925 (6th Cir. 2020) (recognizing that
during a public health emergency it may be appropriate to apply a “state-friendly
standard of review” to a governmental restraint on liberty taken to combat the
emergency even though “in normal times there is no way” that the restraint would
“pass constitutional muster”).
18

21

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.241

Page 22 of 37

Amendment rights in the same manner or to the same extent as the exemptions in
Thompson.
Second, this case is unlike Thompson because in Thompson, Ohio’s stay-at-home
order was “rescinded” before the relevant filing deadline and the plaintiffs had five full
weeks to finish gathering their required signatures. Id. at *4. During that five-week
period, both the plaintiff signature-gatherers and the citizens the plaintiffs wished to
solicit were free to leave their homes and to appear in public places. Here, in contrast,
Governor Whitmer’s executive orders requiring Michiganders to stay at home remained
in place up through the May 27 deadline for the submission of petitions. The lifespan
of those orders supports the conclusion that, in combination with strict enforcement of
the signature requirement and filing deadline, they imposed a severe burden on
Plaintiffs’ First Amendment rights. See id. (explaining that the Sixth Circuit had “found
a severe burden in Esshaki because Michigan’s stay-at-home order remained in effect
through the deadline to submit ballot-access petitions”).19

19

The executive orders in effect for the last twenty days of the collection period –
between May 7 and May 27 – contained the Constitutional Exemption Language,
but for the reasons explained above, that language did not meaningfully limit the
extent of the burden imposed on Plaintiffs’ First Amendment rights. But even if that
language did somehow lessen the burden, that reduction lasted only twenty days and
did not render non-severe the overall burden on Plaintiffs’ First Amendment rights
caused by all of the Governor Whitmer’s executive orders.
22

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.242

Page 23 of 37

3
Defendants raise several arguments in support of their position that the burden
here is not severe. None persuade the Court that the burden on Plaintiffs’ First
Amendment rights is less than severe.
a
Defendants first argue that the burden is not severe because notwithstanding
Governor Whitmer’s Stay-at-Home order, Plaintiffs had plenty of time to collect the
required number of signatures before the May 27, 2020, filing deadline. (See Def.s’
Reply Br., ECF No. 7, PageID.127-128.) Defendants say that Plaintiffs could have
begun circulating their petitions on November 29, 2019, but “Plaintiffs decided late to
start circulating their petitions” and did not start collecting signatures until January 16,
2020. (Id.) Defendants insist that Plaintiffs are responsible for that delay and the
resulting inability to collect the required number of signatures. (See id.) The Court
disagrees.
Judge Berg rejected a similar argument in Esshaki, and the argument fares no
better here. Plaintiffs have shown diligence collecting their signatures. Plaintiffs
collected over sixty percent of the required number of signatures – an average of over
22,000 signatures per week – during a cold Michigan winter and were easily on pace to
collect the required 340,047 signatures before the May 27 deadline. Indeed, as Judge
Berg recognized in Esshaki, “warmer spring weather [that] would accommodate
outdoor activities [would] be more conducive to large social gatherings and door-to-

23

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.243

Page 24 of 37

door canvassing.” Esshaki, 2020 WL 1910154, at *4. As in Esshaki, “[i]t is not enough
to merely assert that [plaintiffs’] successful collection of [sixty] percent of the requisite
signatures with [more than two months] left to go is somehow evidence of dilatory
behavior.” Id.
b
Next, Defendants assert that the burden is not severe because Plaintiffs could
have collected signatures and circulated petitions in the thirteen days between Governor
Whitmer’s State of Emergency executive order on March 10, 2020, and the issuance of
the Stay-at-Home Order on March 23. Defendants insist that during that time, the State
“by no means required or even suggested that Plaintiffs must suspend their signature
collection efforts immediately or indefinitely.” (Def.s’ Resp., ECF No. 7, PageID.128129.)
But that argument “both defies good sense and flies in the face of all other
guidance that the State was offering to citizens at that time.” Esshaki, 2020 WL
1910154, at *5. As the Court recognized in Esshaki, at the time Governor Whitmer
issued her State of Emergency executive order, the State was urging citizens to “reduce
in person gatherings” and limit their interactions with “vulnerable population.” Id.
“Instead of ‘doubling down’ on door-to-door signature collection efforts between
March 10th and March 23rd – increasing the risk that Plaintiff[s] and [their] supporters
could possibly be exposed to the COVID-19 virus by engaging in repeated close-contact
with potential petition signers or unknowingly transmit[ting] it to others – prudence at

24

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.244

Page 25 of 37

that time counseled in favor of doing just the opposite.” Id. Plaintiffs should be
commended for putting the public health of Michiganders above their own self-interest
and desire to collect the required number of signatures, not denigrated for making that
conscientious choice. See also Fair Maps Nevada v. Cegavske, 2020 WL 2798018, at
*13 (D. Nev. May 29, 2020) (“The Court does not find the fact Plaintiffs stopped
collecting signatures in early March—after the COVID-19 outbreak started in Nevada,
but before the Stay at Home Order went into effect—weighs against finding diligence
here. Forcing circulators to go out to collect signatures during the COVID-19 pandemic
is unreasonable and unwise.”).
c
Defendants next argue that the burden placed upon Plaintiffs is not severe
because “Plaintiffs [] had the ability to continue collecting signatures by switching to
the use of regular mail.” (Def.’s Resp., ECF No. 7, PageID.130.) Defendants suggest
that Plaintiffs could have paid to mail petitions to registered voters and then included a
paid “self-addressed stamped envelope” so that voters could mail the signed petition
back to Plaintiffs. (Id.) This argument was properly rejected in Esshaki:
Further, the unforeseen nature of such an expense here surely
magnifies its burden: no candidate, at the time they initially
declared for office, could have anticipated that at the end of
March, just when in-person signature collecting might be
expected to be ramping up, there would arise the sudden
need to switch to a mail-only signature campaign. While
Plaintiff is not entitled to free access to the ballot, the
financial burden imposed by an unforeseen but suddenly
required mail-only signature campaign is far more than an

25

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.245

incidental campaign expense or reasonable regulatory
requirement. For any candidate other than those with
unusually robust financial means, such a last-minute
requirement could be prohibitive. Compare Libertarian
Party of Ky. v. Grimes, 835 F.3d 570, 577 (6th Cir. 2016)
(“the incidental costs of gathering signatures on petitions do
not come close to exclusion from the ballot, and thus do not
impose a severe burden on ballot access”) with Lubin, 415
U.S. at 718, 94 S.Ct. 1315 (holding that a $701.60 filing fee
is an unconstitutional burden on indigent candidate with no
alternative mechanism to get his name on the ballot).
Furthermore, though the Court finds that a mail-only
campaign for the remaining signatures would impose more
than an incidental cost on Plaintiff and candidates like him,
in the context of the COVID-19 pandemic, the efficacy of a
mail-based campaign is unproven and questionable at best.
Conducting an effective mail campaign in the current
environment presents a significant hurdle. Such a mail-only
signature gathering campaign assumes both a fully
operational postal service and a public willing to walk to the
mailbox, open physical envelopes, sign a petition, and
deposit the envelope back into a mailbox or make a trip to
the Post Office. Today, sadly, ample reasons exist to
question the plausibility of each of those assumptions. For
one, the United States Postal Service has itself been affected
by the COVID-19 virus: As of April 7, 2020, more than 386
postal workers have tested positive for the virus nationwide
and mail delays have been confirmed in Southeast
Michigan. Media reports extensively discuss the risks of
contracting COVID-19 from mail, suggesting, at least
anecdotally, that the issue may be of widespread public
concern or even fear. Getting voters to return signatures by
mail in normal times is difficult. In these unprecedented
circumstances, the efficacy of a mail-only signature
gathering campaign is simply an unknown. Forcing
candidates—through little fault of their own—to rely on the
mails as their only means of obtaining signatures presents a
formidable obstacle of unknown dimension.
Esshaki, 2020 WL 1910154, at *5.

26

Page 26 of 37

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.246

Page 27 of 37

There is evidence in this record – through the declarations of Sawari and Parker
– that Plaintiffs attempted to send petitions through the mail, but due to delays at the
postal service, that attempt was not successful. (See Sawari Decl. at ¶23, ECF No 2,
PageID.69; Parker Decl. at ¶8, ECF No. 2, PageID.72.) The Court is not persuaded that
the potential availability of an expensive – and uncertain – mailing campaign lessened
the burden on Plaintiffs here.
d
Finally, Defendants argue that it was the COVID-19 pandemic, not any actions
taken by Governor Whitmer or the other Defendants, that caused Plaintiffs to fall short
of the signature requirement by the filing deadline. While the pandemic undoubtedly
did play some role in preventing Plaintiffs from gathering the required amount of
signatures, the root cause of Plaintiffs’ inability to collect signatures was Governor
Whitmer’s executive orders that required Michigan residents to remain in their homes
for more than two months. Indeed, as Judge Berg aptly concluded in Esshaki, it was
“state action” that “pulled the rug out from under the[] ability to collect signatures.”
Esshaki, 2020 WL 1910154, at *6 (emphasis added). And the Sixth Circuit affirmed
that determination. See Esshaki, 2020 WL 2185553, at *1. See also Fair and Equal
Michigan v. Benson, Mich. Ct. Claims Case No. 20-000095, at 11 (June 6, 2020)
(rejecting argument in action by different ballot-initiative petitioners challenging the

27

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.247

Page 28 of 37

same filing deadline and signature requirement at issue here that “it was not the state
action that burdened the plaintiff’s ability to seek signatures but the pandemic itself”).
Thus, for all of the reasons stated above, the Court concludes that Michigan’s
signature requirement and filing deadline for ballot initiative petitions, in combination
with Governor Whitmer’s Stay-at-Home Order, severely burdened Plaintiffs’
constitutional right to the ballot.
C
The next question the Court must answer is: under the current circumstances and
as applied to Plaintiffs, are Michigan’s signature requirement and filing deadline for
initiative petitions “narrowly drawn to advance a state interest of compelling
importance.” Burdick, 504 U.S. at 434. The Court concludes that they are not.
The Court acknowledges that the signature requirement and filing deadline may
serve compelling interests, including ensuring the integrity of the electoral process and
ensuring that initiatives have a modicum of public support before appearing on the
ballot. But as in Esshaki, the signature requirement and filing deadline are not
“narrowly tailored to the context of the COVID-19 pandemic – as [they] would need to
be to survive a strict scrutiny analysis.” Esshaki, 2020 WL 1910154, at *7.
First, maintaining the current petition filing deadline is not essential to ensure
the integrity of the election process under these circumstances. While modifying the
filing deadline would reduce the time to canvass Plaintiffs’ petitions and resolve
challenges, present the initiative to the Michigan Legislature, and prepare ballots for

28

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.248

Page 29 of 37

the November general election, as set forth in detail in the footnote below, there would
still be sufficient time to complete those important tasks even with an extension.20 The
Court is not persuaded that modifying the filing deadline would prevent the State from
completing its work before ballots need to be printed in late September. See Fair Maps
Nevada, 2020 WL 2798018, at *16 (holding that ballot-access deadline was not
narrowly tailored in context of the COVID-19 pandemic and Nevada’s stay-at-home
order and rejecting argument that extending time to collect signatures would prevent

20

Under normal circumstances, the State would have 117 days between the May 27,
2020, filing deadline for ballot initiative petitions and the September 21, 2020,
deadline to complete all of its pre-election tasks and print and mail general election
ballots to overseas voters. As of the date of this Opinion and Order, there are 103
days between now and September 21. Even if some of that remaining time is
allocated to Plaintiffs to collect signatures, it seems that the State would have enough
time to complete its tasks. In fact, it appears that each step in the process could
reasonably be shortened. For instance, the Michigan Legislature ordinarily has 40
“session days” to consider a ballot proposal, but, when motivated, it has passed bills
in far less time. See http://legislature.mi.gov/doc.aspx?2020-SB-0858 (tracking bill
that Legislature took up and passed within 14 days during pandemic). Moreover, it
seems reasonable to conclude that the Board of State Canvassers could complete its
work and resolve all challenges in less than the ordinarily-allotted amount of time
that is currently provided for that work. Indeed, in an ordinary election cycle, the
Board must complete its work within that time even if a large number of petitions
are filed. And Defendants have not identified any evidence that the Board faces a
heavy docket of petitions for review this cycle. There is simply no evidence in this
record that the Board could not complete its work with respect to Plaintiffs’ one
initiative petition in a much shorter time period if necessary. Finally, the Board
could immediately begin its review of the 215,000 signatures that SawariMedia has
already collected – while SawariMedia seeks to collect the remaining 125,000
signatures – thereby reducing any possibility that it would run out of time to review
signatures that SawariMedia gathers at a later date.
29

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.249

Page 30 of 37

defendants from “not hav[ing] enough time to properly do their job …. There does
appear to be enough time to do everything [d]efendants would normally do on an
expedited timeline”).
Next, the State may achieve its interest in ensuring that a ballot initiative has a
sufficient modicum of support without adhering to the signature threshold currently in
effect. As Judge Berg explained in Esshaki:
[E]ven assuming the State has a compelling interest in the
need to ensure a modicum of support through the
enforcement of the signature requirement, the regulatory
means to accomplish that compelling interest are not
narrowly tailored to the context of the COVID-19
pandemic—as it would need to be to survive a strict scrutiny
analysis. This is because under typical conditions, Plaintiff’s
ability to obtain one thousand signatures from registered
voters would be a valid indication that he has earned the
“modicum of support” the Michigan Legislature deemed
sufficient to appear on the ballot. When setting the
requirement at one thousand signatures, the Michigan
Legislature intended that candidates be allowed until April
21, 2020—under normal, non-pandemic conditions—to
gather one thousand signatures using all of the traditionally
effective means to do so. The March 23, 2020 Stay-at-Home
Order, for reasons already discussed, effectively halted
signature-gathering by traditional means, reducing the
available time prescribed by the Michigan Legislature to
gather one thousand signatures by twenty-nine days. Thus, a
state action narrowly tailored to accomplish the same
compelling state interest would correspondingly reduce the
signature requirement to account for the lost twenty-nine
days. Or, to state it differently, even assuming the State
generally has a compelling interest in ensuring candidates
have a modicum of support before allowing inclusion on the
ballot, here the State has not shown it has a compelling
interest in enforcing the specific numerical requirements set

30

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.250

Page 31 of 37

forth in Section 168.544f in the context of the pandemic
conditions and the upcoming August primary.
Esshaki, 2020 WL 1910154, at *7 (emphasis in original). For similar reasons, the
State’s compelling interest in assuring that a ballot initiative has a sufficient modicum
of support could be achieved by requiring a still-substantial number of signatures that
is less than the 340,047 that would be required under normal circumstances absent a
global pandemic. Indeed, there is nothing inherent in the 340,047 signatures threshold
that establishes that an initiative has a modicum of public support only if it has that
many signatures. Nor is it obvious that an initiative that collects less than that amount,
but still collects hundreds of thousands of signatures in a shorter period of time, lacks a
modicum of public support.
Because Defendants have not shown that their enforcement of the signature
requirement and filing deadline are narrowly tailored to the present circumstances,
those requirements cannot survive a strict scrutiny analysis as applied to Plaintiffs.21
See also Esshaki, 2020 WL 2185553, at *1 (affirming Judge Berg’s holding that both
the signature requirement and filing deadline for candidate petitions were “not narrowly

21

In Fair and Equal Michigan, supra, the Michigan Court of Claims held that
Michigan’s filing deadline and signature requirement for ballot initiatives are
narrowly tailored under the present circumstances. While the Court agrees with
much of the Court of Claims’ other analysis in that case (as evidenced by this
Court’s repeated citation to other aspects of that court’s ruling), the Court
respectfully disagrees with that court’s conclusion that the ballot-access regulations
here are narrowly tailored under these circumstances.
31

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.251

Page 32 of 37

tailored to the present circumstances” (emphasis in original)). Plaintiffs have therefore
established a likelihood of success on the merits of their constitutional claims.
D
Before the Court addresses the remaining preliminary injunction factors, the
Court must address one additional argument Defendants have made. Defendants argue
that Plaintiffs are not entitled to relief under the doctrine of laches because Plaintiffs
“unreasonably delayed raising their claims before this Court.” (Def.s’ Resp., ECF No.
7, PageID.121.) The Court disagrees.
The Court acknowledges that Plaintiffs did not mail their Complaint or
emergency motion to the Court until May 4, 2020, and thus, even if there was not an
unanticipated delay in the action reaching this Court’s docket, that left only three weeks
before the May 27, 2020, filing deadline to resolve this action. And the Court agrees
that had Plaintiffs filed their action earlier, it would have left more time to fashion a
potential remedy.

But the Court disagrees with Defendants that this delay was

“unreasonable” or is a reason to deny Plaintiffs relief. (Id., PageID.122.)
Plaintiffs, who were each acting pro se at the time this action was initially filed,
did not act unreasonably. They complied with Governor Whitmer’s executive orders,
including the Stay-at-Home Order, even though doing so came at the cost of finishing
their circulation of the petitions; they contacted the Secretary of State’s Office on
multiple occasions to inquire whether the signature requirement and/or filing deadline
would be changed in light of the Governor’s executive orders; and they closely

32

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.252

Page 33 of 37

monitored the Esshaki litigation, and not unreasonably believed that when Defendants
agreed to make substantial alterations to the filing deadline and signature requirement
for candidate in that case, that the Defendants would do the same for ballot initiatives.
(See Sawari Decl. at ¶¶ 16-18, ECF No. 2, PageID.68.) And once it became clear that
Defendants were not going to make such accommodations for ballot petitions, Plaintiffs
then filed this action. Moreover, a not insubstantial part of the delay – the delay from
May 4, 2020, until May 20, 2020, when the case first appeared on the Court’s docket –
was due to delays in the Court’s processing of mail due to the pandemic. Had this Court
been operating under normal operating conditions, the Court almost certainly would
have resolved Plaintiffs’ motion before the May 27 filing deadline. The Plaintiffs did
not unreasonably delay filing this action – and, at a minimum, did not delay so
unreasonably as to warrant denial of relief. See also Fair and Equal Michigan, Mich.
Ct. Claims Case No. 20-000095, at 7-8 (rejecting argument that claims recently brought
by proponents of a different ballot initiative against the same ballot-access deadline at
issue here were barred by the doctrine of laches because “the action [was] not the sort
of last-minute, potentially election-delaying lawsuit that courts have declined to
address” based on laches).
VI
The Court now turns to the remaining preliminary injunction factors. The Court
concludes that, on balance, these factors also favor preliminary injunctive relief.

33

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.253

Page 34 of 37

First, Plaintiffs have shown that they will suffer irreparable harm in the absence
of injunctive relief. Without action from this Court, Plaintiffs’ initiative will not appear
on the 2020 general election ballot, and there is no after-the-fact remedy for that
exclusion. Moreover, in “[b]allot access cases such as this … irreparable harm can be
presumed.” Esshaki, 2020 WL 1910154, at *8. See also Liberation Party of Ohio v.
Husted, 751 F.3d 403, 412 (2014) (“[I]t is well-settled that loss of First Amendment
freedoms … unquestionably constitutes irreparable injury.” (quotation omitted)).
The Court next considers whether an injunction would cause substantial harm to
others and whether the public interest would be served by an injunction. As noted
above, these two factors “merge when the Government is the opposing party.” Nken,
556 U.S. at 435. Defendants insist that an injunction would harm its interest in
“effectuating statutes enacted by representatives of its people.” (Def.s’ Reps., ECF No.
7, PageID.138; quoting Maryland v. King, 133 S.Ct. 1, at *3 (2012) (Roberts, C.J. in
chambers).) Thus, as in Esshaki, this Court must “weigh the State’s proffered harm of
not being able to enforce its ballot access requirements against the harm to the
Plaintiff[s] and the public harms that would result from the lack of any injunction.”
Esshaki, 2020 WL 1910154, at *9. Judge Berg concluded in Esshaki that the balance
“weigh[ed] in favor of an injunction,” and this Court agrees:
First, in the absence of an injunction, Plaintiff and other
candidates in his position were left with no choice but to
have violated the Stay-at-Home Order in order to collect the
signatures they need. [….] The broader public interest is not
served by preserving the current signature-gathering scheme

34

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.254

Page 35 of 37

at the cost of encouraging more candidates and their
supporters to risk their health and criminal penalties to
gather signatures.
Second, while Defendants accurately point out that voters do
not have an “absolute right to vote for a candidate of [their]
choice,” it is also the case that a candidate's ability to appear
on the ballot “affects the First Amendment rights of
voters.” [Libertarian Party of Ohio v.] Blackwell, 462 F.3d
[579,] 588 [6th Cir. 2006]; see also Ill. State Bd. of Elections
[v. Socialist Workers Party], 440 U.S. [ 184, 99 S.Ct. 983
(“By limiting the choices available to voters, the State
impairs the voters' ability to express their political
preferences.”). Here, if a candidate should fail to obtain
enough signatures because she had relied on the somewhat
standard and eminently reasonable assumption that she
would be able to ramp up signature collecting in the spring,
Michigan voters may lose the ability to vote for a candidate
who, absent the pandemic, would have easily been included
on the ballot. This would cause injury to the First
Amendment rights of an innumerable number of Michigan
voters.
Esshaki, 2020 WL 1910154, at *9. Just as in Esshaki, “[t]he broader public interest
[would] not [be] served by preserving the current signature-gathering scheme” which
would have forced “supporters [of ballot initiatives] to risk their health and criminal
penalties to gather signatures.” Id. Moreover, absent relief, Michigan voters would
“lose the ability” to vote for a ballot initiative that, “absent the pandemic, would have
[likely] been included on the ballot.” Id. For all of these reasons, the harm to the public
and the Plaintiffs outweighs the State’s legitimate interest in enforcing its election laws
in the manner and timeframe established prior to the COVID-19 pandemic. These
factors therefore also favor an injunction.

35

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.255

Page 36 of 37

VII
Finally, the Court must consider whether to require Plaintiffs to post a bond.
Under Federal Rule of Civil Procedure 65(c), a court may issue a preliminary injunction
“only if the movant gives security in an amount that the court considers proper to pay
the costs and damages sustained by any party found to have been wrongfully
enjoined.” However, notwithstanding that provision, “the rule in [the Sixth] [C]ircuit
has long been that the district court possesses discretion over whether to require the
posting of security.” Motan Co. v. Eagle-Picher Indus., Inc., 55 F.3d 1171, 1176 (6th
Cir. 1995). See also Concerned Pastors for Social Action v. Khouri, 220 F. Supp. 3d
823, 829 (E.D. Mich. 2016) (same). And courts have “significant discretion to waive
the bond requirement in light of the public interest.” Khouri, 220 F. Supp. 3d at 829.
The Defendants have not asked that Plaintiffs be required to post a bond, and the
Court concludes that given the substantial public interests at issue here, a bond would
not be appropriate. Thus, Plaintiffs are not required to post a bond.
VIII
For all of the reasons stated above, the strict application of Michigan’s signature
requirement and filing deadline for ballot initiatives is unconstitutional as applied here,
and Plaintiffs’ motion for a preliminary injunction (ECF No. 2) is therefore
GRANTED. Defendants are enjoined from excluding Plaintiffs’ ballot initiative from
the 2020 general election ballot on the basis that Plaintiffs did not collect 340,047 valid
signatures by the May 27, 2020, filing deadline.

36

Case 4:20-cv-11246-MFL-MJH ECF No. 17 filed 06/11/20

PageID.256

Page 37 of 37

The Court will not “dictate to [Defendants] preciously how they should conduct
their elections.” Esshaki, 2020 WL 2185553, at *2. Instead, as in Esshaki, the Court
“instruct[s Defendants] to select [their] own adjustments so as to reduce the burden on
ballot access, narrow the restrictions to align with [their] interest, and thereby render
the application of the [signature requirement and filing deadline] constitutional under
the circumstances.”22 Id.
IT IS SO ORDERED.
s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE
Dated: June 11, 2020
I hereby certify that a copy of the foregoing document was served upon the
parties and/or counsel of record on June 11, 2020, by electronic means and/or ordinary
mail.
s/ Holly A. Monda
Case Manager
(810) 341-9764

22

To be crystal clear: the Court is not compelling the Defendants to take any
particular action in order to remedy the constitutional violation found by the Court.
If, for instance, Defendants believe that they could not alter the requirement under
the Michigan Constitution concerning the minimum number of signatures in support
of a ballot initiative, they could extend the statutory deadline for the filing of the
petitions containing those signatures. Once again, how to remedy the constitutional
violation is up to the Defendants in the first instance.
37

